<html>
<title> - MEMBER DAY HEARING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                           MEMBER DAY HEARING

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2019

                               __________

                           Serial No. 116-87

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-602PDF                      WASHINGTON : 2020                     
          
-----------------------------------------------------------------------------------                     
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                           

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Meng, Honorable Grace, a Representative in Congress from the 
  State of New York..............................................     4
Case, Honorable Ed, a Representative in Congress from the State 
  of Hawaii......................................................     7
Green, Honorable Al, a Representative in Congress from the State 
  of Texas.......................................................    12
Hill, Honorable French, a Representative in Congress from the 
  State of Arkansas..............................................    18
Roy, Honorable Chip, a Representative in Congress from the State 
  of Texas.......................................................    23
Garamendi, Honorable John, a Representative in Congress from the 
  State of California............................................    30
Steil, Honorable Bryan, a Representative in Congress from the 
  State of Wisconsin.............................................    34

                                APPENDIX

Hearing Notice...................................................    37
Hearing Minutes..................................................    38
Hearing Attendance...............................................    39

                       STATEMENTS FOR THE RECORD

Statement for the record submitted from Congressman Boyle........    40
Statement for the record submitted from Congressman Connolly.....    41
Statement for the record submitted from Congressman Griffith.....    43
Statement for the record submitted from Congresswoman Hartzler...    45
Statement for the record submitted from Congresswoman Lowey......    47
Statement for the record submitted from Congressman Pallone......    48
Statement for the record submitted from Congresswoman Pingree....    49

                           Supplemental Item

Supplemental item submitted for the record from Mr. Hill.........    51

 
                           MEMBER DAY HEARING

                      Thursday, December 12, 2019

                       House of Representatives,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
(chairman of the committee) presiding.
    Chairman Engel. The committee will come to order.
    Without objection, all members will have 5 days to submit 
statements, extraneous material, and questions for the record, 
subject to the length limitation in the rules.
    We are here this morning to hear from our House colleagues 
about their legislative priorities in this committee's 
jurisdiction.
    To all of you, welcome to the Foreign Affairs Committee. I 
am proud of the work that this committee has done so far this 
Congress, notably some of the most bipartisan successes in the 
House, done in partnership with my friend, Ranking Member 
McCaul.
    We are pleased to have this opportunity today to hear from 
our colleagues about their legislative priorities, especially 
colleagues who do not sit on this committee. After brief 
opening remarks by myself and Ranking Member McCaul, each 
witness will have 5 minutes to testify and then answer 
questions from members of the committee. Witnesses testifying 
today will be recognized in the order in which they arrive.
    As this hearing is intended to be primarily a listening 
session, I do not intend to engage in extended questioning of 
the witnesses. So I look forward to hearing your testimony.
    And now I will recognize my friend, the ranking member, Mr. 
McCaul of Texas, for any opening remarks he might have.
    Mr. McCaul. Thank you, Mr. Chairman, for convening this 
hearing this morning which gives members an opportunity to 
present their legislative ideas before this committee.
    I want to take this opportunity to highlight how productive 
the House Foreign Affairs Committee has been over the last 
year. Sixty-eight measures have passed the House this year, 
most passed on a bipartisan basis and overwhelmingly.
    And I would also like to thank all members of this 
committee, all three of us here, for their hard work and for 
remaining above partisan politics. As we always say, politics 
should stop at the water's edge. Our shared commitment to that 
ideology has helped us achieve many wins, and I look forward to 
many more.
    I am especially proud we were able to come together to pass 
a comprehensive State authorization bill this year. Oversight 
of the Department is vital in helping our Foreign Services 
officers carry out their mission. We also had two important 
measures related to our strong support of Hong Kong become 
public law this year.
    You and I, Mr. Chairman, are actively working with our 
Senate counterparts to further increase that number. I look 
forward to working with you and hearing from our members today.
    And with that, I yield back.
    Chairman Engel. Mr. McCaul yields back. Thank you, Mr. 
McCaul.
    I will now recognize our witnesses for 5 minutes each in 
the order in which they have arrived.
    First is someone from my home State of New York. Our 
districts are actually quite close to each other. It is my 
pleasure to have her here, Representative Grace Meng, of New 
York.

  STATEMENT OF THE HONORABLE GRACE MENG, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Meng. Chairman Engel, Ranking Member McCaul, 
subcommittee Chairwoman Karen Bass, Ranking Member Chris Smith, 
and distinguished members of this committee, thank you for this 
opportunity to discuss several of my priorities that are under 
the jurisdiction of the House Foreign Affairs Committee. As a 
former member of this committee, it is great to be back in this 
room with so many friends.
    First, I want to thank this committee for marking up two of 
my bills this year, the Refugee Sanitation Facility Safety Act, 
H.R. 615, which passed the House by unanimous consent in May, 
and the Divided Families Reunification Act, H.R. 1771, for 
which I am optimistic that it will soon be considered on the 
floor of the House.
    One of my top priorities as a Member of Congress is 
protecting those who are vulnerable around the world, whether 
women and girls seeking an education or employment, those who 
lack access to basic services, or victims of natural disasters. 
As a member of the State and Foreign Operations House 
Appropriations Committee, I am proud to do what I can to help 
direct our Federal funding priorities to address these 
concerns.
    Today, I want to bring to the attention of the committee 
two pieces of legislation: H.R. 4092, the Safe from the Start 
Act, which aims to prevent and respond to gender-based violence 
from the onset of emergencies. Too often international response 
efforts fail to recognize gender-based violence as a problem 
until a major disaster response effort is underway. This 
legislation is intended to help the humanitarian community take 
preventative measures and ensure that quality services are 
available for survivors from the onset of an emergency or 
crisis.
    The Safe from the Start Act will increase dedicated GBV 
interventions, integrate GBV risk mitigation across all 
humanitarian sectors, and increase accountability.
    I am thankful to the bipartisan co-leads of this 
legislation: Representative Chris Stewart, Lois Frankel, Mario 
Diaz-Balart, and Chrissy Houlahan, as well as the cosponsors 
who sit on this committee: Representatives Dean Phillips, Ted 
Lieu, Gregory Meeks, David Cicilline, Guy Reschenthaler, Dina 
Titus, Ted Deutch, and Adam Kinzinger.
    In the new year, I will also be introducing the Youth, 
Peace, and Security Act. There are more than 1.8 billion youth 
in the world, the largest number to have ever existed. Youth 
populations have long been at the forefront of building peace 
in their communities by creating youth-led movements, 
organizations, and networks to mitigate negative effects of 
conflict and to prevent recurring cycles of violence.
    Moreover, in countries in conflict, it will be the young 
people who will bear the burden of sustaining the peace over 
generations and leading their society from reconciliation to 
prosperity. This bill will authorize a youth coordinator, 
require a youth strategy, expand technical assistance to youth 
leaders, and create an emergency assistance fund. I look 
forward to introducing this legislation and hope to have the 
committee's support.
    Thank you again for allowing me to testify, and I look 
forward to continuing working with this committee in the second 
session of the 116th Congress.
    Thank you. I yield back.
    [The prepared statement of Ms. Meng follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Engel. Thank you, Congresswoman, and welcome back 
home.
    Ms. Meng. Thank you.
    Chairman Engel. I remember when you were on this committee 
and contributed greatly to its well-being and the well-being of 
the issues that we take on all around the world. So thank you 
for coming back.
    Our next witness is Representative Ed Case of Hawaii. I 
would like some of that weather in Hawaii. If you can box it up 
and send it here, I would be most appreciative.

    STATEMENT OF THE HONORABLE ED CASE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Mr. Case. Thank you, Chair Engel, Ranking Member McCaul, 
Chair Sherman. Aloha. Thank you for the opportunity to testify 
today in support of this committee's and our Congress' 
legislative initiatives focused on the Pacific Islands, a 
critical region for my Hawaii and our country.
    The Pacific Islands and their exclusive economic zones 
encompass a vast area of the Pacific Ocean, larger than the 
land area of Russia and China combined. Their challenges, 
opportunities, and our own engagements range across an equally 
wide spectrum, from defense to development, governance, the 
environment, and culture.
    We have a shared history dating back hundreds of years, and 
too many of our own, of course, have shed blood and still lie 
buried or lost throughout these lands and waters.
    The President's 2017 National Security Strategy and the 
2018 National Defense Strategy rightly identify China as a 
central challenge and the Indo-Pacific as the region where the 
geopolitical competition between our countries, and quote, 
between free and repressive visions of world order, unquote, is 
taking place.
    Earlier this year, DOD issued its Indo-Pacific Strategy 
Report that emphasized revitalized engagement in the Pacific 
Islands. In this, we are behind the curve as not only China, 
but our partner countries, including Australia, New Zealand, 
and Japan, have substantially ramped up their engagement over 
the past decade.
    These Pacific Islands are critical to the United States, 
not only because of our shared interest, values, and history, 
but also because our country, of course, is part of them. 
Together, American Samoa, Guam, the Northern Marianas, and, of 
course, Hawaii provide vital links to this region, especially 
as Hawaii hosts the headquarters of the U.S. Indo-Pacific 
Command and its component commands and institutions that 
promote our interest in the Pacific Islands, such as the East-
West Center and the Asia-Pacific Center for Security Studies.
    Given the importance of this region to our national 
security, I am very proud to have cofounded this year the first 
ever congressional Pacific Islands Caucus with my friends, the 
dean of this House, Mr. Young, and the chairman, Mr. Sherman, 
and ranking member, Mr. Yoho, of this committee's Subcommittee 
for Asia, the Pacific, and Nonproliferation.
    I am here today to testify in support of a sound, cohesive, 
and long-term U.S. strategy of full engagement in this region 
across all areas.
    This critical geopolitical competition in the Pacific 
Islands demands this whole-of-government strategy which 
enhances and balances our military edge with necessary 
additional increased development assistance and diplomatic and 
cultural engagement based on our shared values and history. 
Specifically, Congress should enact legislation building on the 
progress made by ARIA and the BUILD Act from last Congress to 
provide the right tools and authorize the necessary funding to 
compete against potential adversaries and maintain trust among 
our allies and partners in our leadership. This renewed effort 
is critical to our success.
    A few months ago, I met with fellows of the East-West 
Center's Pacific Islands Leadership Program to discuss their 
perceptions of the United States and its role in the region. 
These young professionals and future leaders of their Pacific 
Island homes expressed to me their concern that the U.S. had 
neglected their part of the world. To them, the connective 
tissue that has long bound our nations and people's together 
was weakened by our perceived absence and strained by the 
rapidly changing regional dynamics.
    To address this challenge, I hope to work with my caucus 
and this committee on new and renewed initiatives in three 
areas: diplomacy, development, and democracy. In diplomacy, 
this includes bolstering our presence in the Pacific Islands 
and participating more regularly and at more senior levels in 
existing regional organizations like the Pacific Islands Forum, 
the Pacific community, and more.
    The development challenges in the Pacific Islands present 
additional opportunities for U.S. engagement, especially in 
healthcare, fisheries, and marine resource management, climate 
change, and U.S. trade and private sector investment.
    Last, we must support democracy, good governance, and the 
rule of law in the Pacific Islands just as we do around the 
world. By doing so, we empower citizens in civil society to 
combat corruption and hold governments accountable in upholding 
their interest in sovereignty.
    In conclusion, given the accelerating importance of the 
Pacific Islands to our national interest, I hope members of 
this committee and other members of our body will consider 
joining our Pacific Islands Caucus and work with us to send a 
strong signal of our commitment to our allies and partners in 
this region.
    I look forward to working with the committee and its 
members and staff on achieving our goals in a region that will 
truly determine our place in a rapidly changing world for 
generations.
    Thank you for your time and interest.
    [The prepared statement of Mr. Case follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Engel. I thank you, Mr. Case, for testifying. I 
appreciate your remarks and certainly will consider them as the 
Foreign Affairs Committee considers its legislative priorities 
for next year. So thank you for coming here today.
    Mr. Case. Thank you.
    Chairman Engel. OK. Next, my pleasure to call on 
Representative Al Green of Texas.

   STATEMENT OF THE HONORABLE AL GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman.
    I would like to thank Chairman Engel, Ranking Member 
McCaul, and Mr. Sherman, and all other members of this august 
body for presenting me this opportunity to testify before the 
committee. I am on a mission of mercy. I would also like to 
thank them for your efforts, in particular for your leadership 
in sending a bicameral letter to the White House requesting the 
dispatch of special envoy for hostage affairs for Mr. Austin 
Tice. I am on a mission of mercy.
    Because of you, the letter had support from 52 Senators, 
120 Representatives, and for that, I am especially thankful. I 
am on a mission of mercy.
    Mr. Tice is a former Marine Corps captain and a freelance 
journalist from Houston, Texas. He is an Eagle Scout. He grew 
up wanting to become an international correspondent for NPR. 
Mr. Tice was an outstanding student. He attended the University 
of Houston for 1 year, and then transferred to Georgetown 
University School of Foreign Service. His work was published in 
The Washington Post, McClatchy newspaper, as well as other 
forms of news media. He was enrolled in Georgetown Law School 
and had completed 2 years before his sudden disappearance.
    In May 2012, Mr. Tice went to Syria as a freelance 
journalist to tell the story of the ongoing conflict there. He 
was abducted after being detained at a checkpoint in Damascus, 
and approximately a month later, a 43-second video emerged with 
the title, ``Austin Tice is alive.'' I am on a mission of 
mercy.
    The video showed Austin being held by a group of 
unidentified men with assault rifles. There has been absolutely 
no contact with his captors since. We can only imagine the 
horrors Mr. Austin Tice has been through the past 7 years.
    The Tice family, whom I know quite well, Debra and Marc, 
and the U.S. Government are both confident that Mr. Tice is 
alive and have worked tirelessly for his release. The FBI has 
offered a $1 million reward for information leading to his 
return. I am on a mission of mercy.
    One of our most important responsibilities as elected 
officials is to protect the American people on both domestic 
and foreign soil. We have an obligation to Mr. Tice and his 
parents who have waited for over 7 years to see their son. I am 
indebted to all my colleagues across both Chambers and both 
sides of the aisle for their advocacy on behalf of Mr. Tice and 
his family, but I believe that we can still do more. This is 
why I am testifying today in support of my resolution, H. Res. 
17.
    This resolution expresses concern over the detention of Mr. 
Tice and encourages the Department of State, the office of 
Special Presidential Envoy for Hostage Affairs, and other U.S. 
Government entities to engage with Syria to facilitate Mr. 
Tice's safe release.
    I have never given up on my constituents or family members 
of constituents who have been deported or detained by foreign 
governments. Seven years is simply too long for Mr. Tice to be 
separated from his loved ones. And I ask this committee to take 
up my resolution and show that Congress not only agrees with 
this sentiment, but also calls for his safe return.
    I thank you again. And I would just simply add, I have been 
with the family on multiple occasions. They have visited 
Washington, DC. Mr. Tice's mother has gone to Syria. She has 
been to Lebanon. She has left no stone unturned, as is the case 
with his father. We believe him to be alive, and we believe 
that it is time to bring him home. I know that it is a rare 
circumstance for resolutions to be brought to the floor, but 
this is a mission of mercy. And I beg that you would give 
extreme consideration to the resolution so that we may do one 
additional thing to bring Mr. Tice home.
    I yield back the balance of my time.
    [The prepared statement of Mr. Green follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Engel. Well, thank you, Congressman, and certainly 
appreciate your remarks, and we will certainly consider them as 
the Foreign Affairs Committee does its legislative priorities 
for next year.
    I know Mr. McCaul wanted to make a statement or ask some 
questions.
    Mr. McCaul. Thank you, Mr. Chairman. And let me thank you--
excuse me, I have a cold today--Congressman Green. I met the 
parents myself as well. I join you in your mission of mercy. I 
want to thank you for bringing this resolution to the 
committee's attention, and I hope the U.S. Government can 
exercise all its powers to bring Austin Tice back home to 
Texas, and we will give your resolution due consideration. And, 
in fact, I do not want to jump ahead of the chairman, but I, 
myself, speaking for myself, am very supportive. So thank you.
    Mr. Green. I thank the gentleman very much.
    Chairman Engel. Thank you. And we will be--we will 
certainly be in touch.
    Mr. Green. Thank you, Mr. Chairman.
    Chairman Engel. Thank you.
    Next is Congressman French Hill from Arkansas. Welcome.

  STATEMENT OF THE HONORABLE FRENCH HILL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Hill. Thank you, Mr. Chairman, Ranking Member McCaul, 
members of the committee. Thank you for letting members come 
before you today and testify on their priorities.
    Today, I would like to talk about my resolution, H. Res. 
49, Supporting Coptic Christians in Egypt, which has a diverse 
and bipartisan coalition of members that cosponsor it. My 
Democratic lead on H. Res. 49 is my friend on Foreign Affairs 
Committee, Member Dave Cicilline. My resolution currently has 
71 cosponsors, including 25 from this committee.
    I introduced this resolution in the 115th Congress, 
following a 2017 trip to Egypt. While preparing for the trip, 
visiting the country, and returning home, I repeatedly heard 
about the plight of Coptic Christians in Egypt. Although the 
Copts have been the victims of numerous terrorist attacks by 
groups like ISIS, what is most disturbing to me are the attacks 
against Copts that are carried out by their fellow Egyptians.
    Most recently in Minya province in upper Egypt in late 
November, a mother and her son were stabbed by a Muslim man 
while sitting in front of their home after being told that 
Christians are not allowed outside. Luckily, they were not 
killed. Sadly, this is a persistent narrative in Minya.
    The 2018 and 2019 State Department reports on religious 
freedom in Egypt mention specifically Minya province as an area 
of concern more than any other province in the country.
    Also in late November, Ramy Kamel, a Coptic Christian and 
founder of Coptic Christian Rights Organization, was arrested 
by the Egyptian police and accused of numerous terrorism-
related charges. It is also reported that he has undergone 
intensive interrogation and has been given no legal 
representation. Unfortunately, cases like this in Egypt are 
becoming more numerous.
    Our country and our citizens over the generations have 
worked mightily to live up to the values and inalienable rights 
granted to us by God above and enshrined in our founding 
documents, especially the vocal support of free expression 
abroad, particularly in the form of advocacy for religious 
tolerance and freedom, the rule of law, human rights, and 
education for women and minorities. These are fundamental 
tenets of our foreign policy.
    In my work on this resolution here in the House, I continue 
to give voice to this very American ideal.
    Likewise, I have met with religious leaders from all across 
the Levant, from Lebanon, to Syria, Iraq, and in Jerusalem, 
with an eye toward better shaping American and allied support 
of Christians and other persecuted religious minorities in the 
region.
    I have great respect for Egyptian President el-Sisi, and I 
applaud the changes and message that he has made in the areas 
of religious tolerance. He continues to say and do the right 
things at the top level of government, and Egypt is a good 
partner with the United States. President el-Sisi has a good 
relationship with the Coptic Pope, attends mass on multiple 
occasions, has reconstructed destroyed churches, constructing 
the largest Christian cathedral in the Middle East in the new 
administrative center in Egypt. He has held terrorists 
accountable for their atrocities.
    However, I believe there is more that can be done. And as 
the second highest receiver of American military support, the 
U.S. Government must use its tools and hold our allies like 
Egypt to a higher standard in order to receive our aid.
    It is in this regard that I believe the one vehicle readily 
available to this committee to highlight the United States 
Government's concern of the treatment of the Coptic Christians 
in Egypt is my resolution, H.Res. 49.
    Let's recall President Reagan's admonition as to our 
responsibility. Respect for human rights is not social work. It 
is not merely an act of compassion. It is the first obligation 
of a government and the source of its legitimacy.
    I appreciate, Chairman Engel, your leadership on this 
committee. Ranking Member McCaul, I appreciate the opportunity 
to testify before you on this important matter. And with your 
permission, I would like to add a supplemental item that 
complies with your page limitation to the--for the record.
    Chairman Engel. Without objection.
    Mr. Hill. I thank the chairman, and I appreciate the 
opportunity to be with you today.
    [The prepared statement of Mr. Hill follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Chairman Engel. Thank you. We appreciate you coming. And, 
you know, when I hear French Hill, I think of this area around 
Jerusalem.
    Mr. Hill. It is a great place for coffee.
    Chairman Engel. Thank you for coming.
    Mr. Hill. Thank you, Mr. Chairman.
    Chairman Engel. Now, Representative Chip Roy of Texas.

   STATEMENT OF THE HONORABLE CHIP ROY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Roy. Thank you, Mr. Chairman. I thank the ranking 
member, and appreciate you all giving us the courtesy of being 
able to come and speak about some matters that are important to 
us and legislation that we think might be important for this 
committee to consider.
    My colleague, Representative Green from Tennessee, and I 
introduced legislation earlier this year, called the Drug 
Cartel Terrorist Designation Act, calling on the administration 
to designate certain cartels--and that is a very important 
distinction--certain cartels as foreign terrorist 
organizations.
    Ten other members joined this bill--joined--I am sorry--a 
letter also to Secretary Pompeo that reiterated this request.
    Specifically, H.R. 1700 requests the foreign terrorist 
organization designation for the following cartels: The 
Reynosa, Los Metros faction of the Gulf Cartel, the Jalisco New 
Generation Cartel, and the Cartel Del Noreste that is 
affiliated with Los Zetas.
    I know that the chairman and the ranking member in this 
committee is well aware of the extent to which cartels have 
operational control of the border, particularly in my home 
State of Texas and that of the ranking member. We know the 
extraordinary impact those cartels are having, not only on the 
border communities, but our Nation as a whole, our national 
security, as well as our friends to the south in Mexico, in 
destabilizing the region, not just in terms of drug 
trafficking, not just in terms of the economic impact, not in 
terms of just the profit of the cartels, which is massive, but 
our overall national security and stability and the political 
stability of Mexico, and impacting even our local politics in 
south Texas, where the Rio Grande Valley politicians are often 
under the thumb of the cartels with their reach across the 
border.
    What we have seen in recent months is troubling. And we 
know, we have seen, according to the congressional Research 
Service, since 2006, there have been roughly 150,000 organized 
crime-related killings in Mexico alone. We have seen numbers 
even as high as 200,000 or more.
    Council on Foreign Relations paper updated in October of 
this year reports that murders are soaring in Mexico, and 
homicide reached a new high of 36,000. Now, that alone is not 
necessarily something that would say you want to move in the 
direction of a foreign terrorist organization designation, but 
the extent to which they have political influence, the extent 
to which that is a destabilizing force in Mexico and along our 
border is, I think, something that we should take note.
    In October, 35 Mexican police and National Guard troops 
were surrounded and outgunned by cartel forces, ultimately 
forcing to release drug lord Ovidio Guzman, otherwise known as 
El Chapo's son.
    Mexico's Citizens' Council for Public Security lists that 
42 of the 50 most violent cities in the world are in Latin 
America, and this is a direct result of cartels. We know about 
the drug trafficking, we know the danger. But even with the 
decrease in the amount of the human toll and the trafficking 
this fall, because of our engagement with Mexico, we saw 
mountains of fentanyl coming across our border. We can get the 
recent stats and we can pull them up, but the amount of 
fentanyl, heroine, cocaine pouring across our border is 
extraordinary. And we are seeing the direct impact in terms of 
the opioid abuse in our country. And I think that this is 
something that we ought to consider.
    And I know that a number of my colleagues are concerned 
about what this might do to the Return to Mexico program or 
other policies in terms of how we engage in Mexico because of 
the perceived danger of returning people to a country where you 
have got cartel control. To those who are concerned about that 
in the State Department or in the White House or in this body, 
I would say, Mexico is as dangerous as Mexico is.
    There are five States that are designated level 4 States by 
the State Department. Tamaulipas is one of those. That is a no-
travel zone. This is not the Mexico of our parents and 
grandparents. I mean, this is--you know, you do not go down 
there and go grab some lunch and just hang out for the 
afternoon in Reynosa. It is dangerous. I have sat overnight 
twice this year down in McAllen, sitting next to the river, 
listening to gunfire across the river. I mean, it is a 
dangerous zone, and this is literally in our backyard and it is 
on fire.
    And as we have got people around the world right now 
defending the United States, I think we ought to be focusing on 
Mexico in our backyard. These organizations kill people. They 
post videos killing people. They put bodies in barrels of 
sulfuric acid. They behead people. There were seven bodies 
found alongside the road. There were nine hanging from a 
bridge. Twenty-seven people were locked in a bar and burned to 
death. This is the action of the cartels right in our backyard.
    I would bring up one final point in the last minute I have. 
I wrote an op-ed in September pointing out that we had crossed 
the milestone of 18 years since the authorization of force in 
September 2001. That means we have people that are enlisting in 
the Armed Forces today who were not alive when we passed the 
authorization of force under which they are now fighting.
    I think in light of what we have seen now coming out from 
The Washington Post reports this week, some of the question 
marks about what we are accomplishing in Afghanistan, as many 
good things as our men and women in uniform have done--and they 
have done enormously great things that are important for our 
national security--we ought to be taking a long, hard look at 
what we are asking our men and women in uniform to do, in 
particular in Afghanistan.
    And I think it is incumbent upon this body to have a clear 
mission for our men and women in uniform, to speak with one 
united voice on that front, even as we are seeing some of this 
information come in overseas. And I think we should have a 
renewed focus, as I already said, on the Western Hemisphere, in 
our backyard and what's going on in Mexico.
    I appreciate the time of the chairman. I appreciate you 
opening up this day for us to come visit. Thank you all.
    [The prepared statement of Mr. Roy follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Engel. Thank you, Congressman, for testifying.
    And I know Mr. McCaul wanted to make some brief remarks.
    Mr. McCaul. Well, I guess he is leaving.
    Hey, Congressman Roy.
    Mr. Roy. Sorry.
    Mr. McCaul. Just one quick--I share your concern, being 
from Texas. I think their tactics are like acts of terrorism. 
When I chaired Homeland Security Committee, I saw the videos 
time and time again. And so I actually--interestingly, I 
introduced this bill in 2006, and it sat in the Judiciary 
Committee, which I think is the committee of jurisdiction for 
this. And since that time, we passed the Kingpin Act, which 
does put sanctions on the cartels. It is a good step forward.
    Mr. Roy. Agreed.
    Mr. McCaul. But certainly take a look at the bill. But I do 
think it probably lies within the jurisdiction of Judiciary, 
and I would encourage you to talk to----
    Mr. Roy. Yep.
    Mr. McCaul [continuing]. The committee members over there 
as well.
    Mr. Roy. I agree. And the point of coming here today was 
just the considerable expertise in this committee and how 
important this is from a national security and foreign 
relations standpoint. Whether it is that bill or others, we 
should be taking a very specific and targeted process of how we 
are targeting the cartels. So appreciate that.
    Mr. McCaul. We thank you for that. And I see your 
daughter's waiting for you.
    Mr. Roy. She is, patiently. She is looking forward to the 
White House Christmas party tonight. So----
    Mr. McCaul. We will see you there.
    Chairman Engel. Have a good time, and thank you for 
testifying.
    Next, Representative John Garamendi of California, who 
would win a contest for the nicest Christmas card that we have 
received with all the grandchildren and everything else. So 
congratulations.

STATEMENT OF THE HONORABLE JOHN GARAMENDI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Garamendi. Thank you. Indeed, Patti and I are blessed 
with that family. Thank you.
    Mr. Chairman, Mr. McCaul, and Mr. Sherman, thank you very 
much for the opportunity to spend some time with you today. I 
am here to speak on behalf of my legislation, H.R. 3456, the 
Peace Corps Reauthorization Act. And I respectfully request 
that you include this legislation in any upcoming hearing that 
you may have with the director of the Peace Corps on Peace 
Corps issues.
    I want to thank my fellow Peace Corps Caucus co-chairs, 
Representative Joe Kennedy of Massachusetts and Garret Graves 
of Louisiana, for their support as original cosponsors.
    Like successive generations of young Americans, my wife 
Patti and I answered President Kennedy's call and served in the 
Peace Corps in Ethiopia, 1966 to 1968.
    Since the establishment of the Peace Corps in 1961, more 
than 230,000 Americans have volunteered and served in 141 
countries around the world. Today, there are some 8,000 Peace 
Corps volunteers serving in 65 countries.
    However, Congress last reauthorized the Peace Corps in 
1999. And that was Public Law 106-30, which did expire at the 
end of the Fiscal Year of 2003.
    Now, more than ever, Congress must support the Peace Corps' 
mission and realize President Kennedy's vision of generations 
of young Americans ready to serve their Nation and make the 
world a better place, both overseas and here in America.
    Our Peace Corps Reauthorization Act of 2019 would do just 
that by providing additional Federal resources to better 
support current, returning, and former Peace Corps volunteers 
by doing the following things: Authorizing $450 million per 
Fiscal Year for the Peace Corps, an increase over the flat $410 
million funding level provided by Congress in most recent 
years; also increasing the monthly allowance for Peace Corps 
volunteers and leaders to $417 per month of service completed 
to reflect the increased cost of living; and provide a $10,000 
for a full 2-year term of service.
    It also extends the Peace Corps volunteers' Federal hiring 
preference during any hiring freezes, government shutdowns, or 
while volunteer receives workers' compensation benefits for an 
injury occurred during their Peace Corps service. Also 
increases the workers' compensation rate for all Peace Corps 
volunteers injured or disabled during their service from the 
Federal GS-7 to a GS-11 level, the same rate provided for Peace 
Corps volunteers with dependent children under current law.
    As co-chair of the congressional Peace Corps Caucus, I am 
proud to continue this work in support of the Peace Corps 
mission, its volunteers, and the indelible impact their service 
has had on the lives of needy people around the world. I hope 
to work with you, Mr. Chairman, and Ranking Member McCaul and 
the other members of the committee, to advance the Peace Corps 
Reauthorization Act in this Congress.
    Our bipartisan bill is endorsed by the National Peace Corps 
Association. So, Mr. Chairman, I certainly would hope that you 
would commit to work with us on holding a hearing.
    I thank you, and yield the remaining time that I have.
    [The prepared statement of Mr. Garamendi follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Engel. Thank you. Thanks very much for testifying. 
And we all appreciate your remarks and certainly will consider 
them as the Foreign Affairs Committee does its legislative 
priorities for the coming year. So thank you, and I know we 
will have further conversation about this.
    Mr. Garamendi. Indeed, we will, and I will catch the three 
of you on the floor.
    Chairman Engel. OK.
    Mr. Garamendi. Thank you so very much.
    Chairman Engel. It is a deal. Thank you.
    OK. Thank you. And now we have Representative Bryan Steil 
of Wisconsin.

  STATEMENT OF THE HONORABLE BRYAN STEIL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Steil. Thank you, Chairman Engel, and thank you, 
Ranking Member McCaul. It is also good to see my colleague from 
my home committee, Financial Services, Mr. Sherman, with us 
here today. I appreciate all of your commitment to addressing 
the scourge that is human trafficking. I am here today to shed 
light on an issue that affects every corner of this Nation and 
every country in this world: human trafficking.
    Human trafficking is a horrendous crime that represents a 
real threat across the United States and, in particular, to the 
people of southeast Wisconsin. This is not just a far-away 
problem. Human trafficking has been reported in every county in 
the State of Wisconsin. Boys, girls, men, women, all ages, 
nationalities, and backgrounds are victims of human 
trafficking.
    More than 500,000 people are trafficked across 
international borders every year. More than 14,000 women, 
children, and men are trafficked in the United States. This is 
a global epidemic. Criminals have become organized and 
sophisticated in their ways, making human trafficking a 
lucrative industry.
    The International Labor Organization estimates more than 
$150 billion in illegal profits is made from forced labor each 
year. If there is a profit to be made, these criminals will 
take advantage of it. That is where a nonpartisan solution 
comes into play to deter these crimes from occurring.
    Currently, the United States uses the Trafficking in 
Persons Report to engage foreign governments to combat human 
trafficking. Governments will report their efforts to stop 
human trafficking within their own country. Foreign aid is then 
given to these countries based on their strides to prevent 
these crimes. However, while Trafficking in Person Reports 
evaluates several criteria, there is no requirement to showcase 
a country's efforts to disrupt the illicit financing of human 
trafficking.
    In April, I introduced my first bill, the Exposing the 
Financing of Human Trafficking Act. This nonpartisan bill holds 
countries accountable for their involvement in human 
trafficking.
    The Exposing Financing of Human Trafficking Act requires 
countries to report their efforts to investigate, prevent, and 
prosecute financial crimes associated with human trafficking. 
Right now, countries that receive U.S. aid have no 
responsibility to report their effort to prevent money 
laundering from human trafficking. We can change this. We must 
follow the money.
    And while this bill may be a simple change, it will have a 
global impact on how countries combat human trafficking. Forty-
seven of my colleagues have joined me in this effort, many whom 
are members of this committee. Not only does this bill 
strengthen our effort to combat human trafficking--traffickers' 
use of the domestic financial system, it importantly encourages 
other countries to cutoff traffickers from the global financial 
system.
    This effort is just one piece of the puzzle. Fighting human 
trafficking requires a multifaceted approach. That is why 
awareness campaigns, school counselors, teachers, law 
enforcement officers all play a vital role.
    I am thankful to the southeast Wisconsin law enforcement 
community. Many of our county sheriffs and police officers are 
working diligently on human trafficking. We have to work 
together, all of us, Democrats and Republicans, local, State, 
Federal, international partners, to take this crisis head on.
    I am going to continue to work with my community in 
southeast Wisconsin to address this problem, and I will 
continue to fight this issue here in Congress. Bringing 
attention to human trafficking is a necessary first step, and 
passing this legislation and other anti-human trafficking bills 
is the next step. Our work is not done.
    So, today, I ask the committee to mark up the Exposing the 
Financing of Human Trafficking Act. I am confident it would 
pass with broad bipartisan support on both sides of the aisle. 
And thank you again to Chairman Engel and Ranking Member McCaul 
for the opportunity to speak here today and for your work on 
this issue. Thank you.
    [The prepared statement of Mr. Steil follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Engel. Well, thank you very much, Congressman 
Steil. Those statistics are certainly very shocking. You start 
to digest them, it really is overwhelming. And so we certainly 
appreciate your remarks, and we will absolutely consider them 
as the Foreign Affairs Committee considers its legislative 
priorities for the new year. I thank you.
    I do not know if Mr. McCaul----
    Mr. McCaul. Yes. I just want to thank you for bringing this 
to our attention. I am very involved with this issue. It is 
modern-day slavery in our lifetime, and we need to stop it, and 
so I look forward to looking at your bill. I think Brian 
Fitzpatrick's End Banking for Human Trafficking, a very similar 
bill, did pass this committee. It is sitting in Financial 
Services. So maybe you and Mr. Sherman could possibly move that 
along as well.
    And I had--I know January is Human Trafficking Awareness 
Month, and I brought a victim, Courtney Litvak, to the White 
House to meet Ivanka Trump, and she invited her to attend the 
summit at the White House in January. So I look forward to 
working with you on this important issue and doing everything 
we can to stop it.
    Mr. Steil. Thank you very much for your efforts.
    Mr. McCaul. I yield.
    Chairman Engel. OK. Thank you very much.
    I think that concludes our witnesses. So let me again 
reiterate that we thank all of you and appreciate all the 
remarks, and we will certainly consider them as the Foreign 
Affairs Committee does its legislative priorities for next 
year.
    If there is not any other business or any other witnesses, 
then I will adjourn the hearing.
    Hearing nobody, let me say the hearing is officially 
adjourned, and thank you all for attending.
    [Whereupon, at 10:46 a.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre></body></html>
